IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

RONNIE EUGENE FUSTON, }
Petitioner, :
THE STATE OF OKLAHOMA,
Respondent. :

AFFIDAVIT OF MAILING
COUNTY OF OKLAHOMA, STATE OF OKLAHOMA ) SS.

I, Andrea Digilio Miller, being first duly sworn, depose and say that | am a
member of the bar of this Court, that I am the attorney for Petitioner Ronnie E.
Fuston, and that I caused to be mailed an original and one (1) true and correct
copy of the Petition For Writ Of Certiorari To The Oklahoma Court Of Criminal
Appeals to the Office of the Clerk, Supreme Court of the United States, on the gm
day of November, 2020, by depositing same in the United States Mail, postage
prepaid.

I further depose and say that I caused to be mailed a true and correct copy
of the foregoing Petition For Writ Of Certiorari To the Oklahoma Court Of Criminal
Appeals to Jennifer Miller, Chief of Criminal Division, Office of the Attorney

f—
General, on the 9 day of November, 2020.

Further Affiant sayeth not. S 7 f | flA

ANDREA DIGILIO MILLER
Subscribed and sworn to before me this g day of November, 2020.

MY COMMISSION EXPIRES:

Se NOTARY PUBLIC
{CORN

   

‘rm
